Appendix A

:

\

Case 2:20-cv-01342-GAM Document 9 Filed 07/21/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
WELLS FARGO BANK, N.A.,
Plaintiff,
CIVIL ACTION NO. 20-CV-1342

v.
RUSSELL ARRINGTON,
Defendant.

ORDER
This 21st day of July, 2020, upon consideration of Defendant Russell Arrington’s Motion
to Proceed In Forma Pauperis (ECF No. 1), his pro se Notice of Removal (ECF No. 2), and the
Motion to Remand-to State Court filed by Plaintiff Wells Fargo Bank, NA. (ECF No. 6), it is
ORDERED that:
1. Leave to proceed in forma pauperis is GRANTED pursuant to 28 U.S.C. § 1915.
2. The Notice of Removal is DEEMED filed.
3. The Motion to Remand to State Court (ECF No. 6) is GRANTED.
4. This action shall be REMANDED forthwith to the Court of Common Pleas for
Delaware County pursuant to 28 U.S.C. § 1447(c) for the reasons stated in the Court s
i

Memorandum.
5. The Clerk of Court shall CLOSE this case.

Case 2:20-cv-01342-GAM Document 9 Filed 07/21/20 Page 2 of 2

Chambers shall serve this Order and accompanying Memorandum by First Class mail
upon Defendant Russell Arrington at 428 Church Lane, Yeadon, PA 19050, posted this same
date.

BY THE COURT:
/s/ Gerald Austin McHugh
United States District Judge

Case 2:20-cv-01342-GAM Documents Filed 07/21/20 Page lot5

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
WELLS FARGO BANK, N.A.,
Plaintiff,
v.

CIVIL ACTION NO. 20-CV-1342

RUSSELL ARRINGTON,
Defendant.
MEMORANDUM
MCHUGH, J.

JULY 21,2020

This matter comes before the Court by way of a Notice of Removal (ECF No. 2) filed by
Defendant Russell Arrington, proceeding pro se, removing this action from the Court of
Common Pleas for Delaware County, Pennsylvania. Also before the Court is Arrington’s
Motion for Leave to Proceed In Forma Pauperis (ECF No. 1) and a Motion to Remand to State
Court (ECF No. 6) filed by Plaintiff, Wells Fargo Bank, N.A. (“Wells Fargo”). Because it
appears that Arrington is unable to afford to pay the filing fee associated with removal, the Court
will grant him leave to proceed in forma pauperis. For the following reasons, the Court will
further grant Wells Fargo’s Motion to Remand to State Court and remand this case for lack of
subject matter jurisdiction.
L

FACTUAL ALLEGATIONS1 AND PROCEDURAL HISTORY
On or about March 9,2020, Arrington filed a Notice of Removal with respect to an action

originally filed in the Court of Common Pleas for Delaware County based on what he contends is
an “unlawful ejection” from a residential property located at 428 Church Lane in Yeadon,
Pennsylvania (hereinafter, “the Church Lane Property”). (ECF No. 2 at 3,7-8.) Arrington

1 The factual allegations set forth in this Memorandum are taken from Arrington’s Notice of
Removal and all attached exhibits and documents attached thereto. (ECF No. 2.)

Case2:20-cv-01342-GAM Documents Filed07/21/20 Page2of5
alleges that Wells Fargo “is not [the] Real Party in Interestf,]” claiming that the “[a]lleged debt
[on the Church Lane Property] has been satisfied.” (Id. at 3.) Arrington also claims that he “is
the original Grantor/Trustor on the Deed of Trust/Mortgage for loan #: 05246177727” related to
the Church Lane property. (Id. at 8.) Arrington alleges that this mortgage “note has been
satisfied in full, and therefore, the account is discharged and closed\.Y based on his contention
that he “sent certified funds in the amount of $140,000.00 to settle the financial obligation” to
Wells Fargo on or about July 30,2018. (Id. at 8,12,55) (emphasis in original). As relief,
Arrington asks this Court to “Deny [the] Ejectment” and “dismiss [the] case[.]” (Id. at 3.)
In response to Arrington’s Notice of Removal, Wells Fargo filed a Motion to Remand to
State Court. (ECF No. 6.) In support of the Motion, Wells Fargo argues that it initiated this
matter as an Ejectment Action by way of a Complaint filed on January 7,2020 in the Court of
Common Pleas for Delaware County. (ECF No. 6-1 at 1.) Wells Fargo also attached a copy of
the Ejectment Action Complaint as Exhibit A in support of its Motion to Remand. (ECF No. 6-3
at 3.) The Ejectment Action Complaint, and the additional exhibits attached thereto, including
the Sheriff s Deed, make clear that the Church Lane Property was sold to Wells Fargo by the
Sheriff of Delaware County on approximately November 15,2019 as a result of a foreclosure
and judicial sale. (Id. at 6-3 at 3, 5-7.) Wells Fargo, as Plaintiff, argues that remand is required
here because Arrington’s “Notice of Removal fails on a number of grounds to set forth any
legitimate grounds for removal to” this Court. (ECF No. 6-1 at 2.) Specifically, Wells Fargo
asserts that Defendant has not presented a basis for die Court’s subject matter jurisdiction under
either federal question jurisdiction, 28 U.S.C. § 1331, or diversity jurisdiction, 28 U.S.C. § 1332.

2

'x
Case2:20-cv-01342-GAM Documents Filed07/21/20 Page3of5

{Id at 2-4.) Wells Fargo also argues that Arrington is precluded from removing this action under
28 U.S.C. § 1441(b)(2), also known as the forum defendant rule.2 {Id. at 2-3.)
II.

STANDARD OF REVIEW
Because Arrington appears to be unable to pay the filing fee in this matter, the Court will

grant him leave to proceed informa pauperis. Where a case is removed from state court, 28
U.S.C. § 1447(c) provides that “[i]f at any time before final judgment it appears that the district
court lacks subject matter jurisdiction, the case shall be remanded!;]” see also Cook v. Wilder,
320 F.3d 431,437 (3d Cir. 2003) (“Once a party timely files a motion to remand, § 1447(c)
authorizes a district court to enter a remand order... for a ‘lack of subject matter jurisdiction.’”).
Arrington, as the party removing this action to federal court, bears the burden of establishing
federal jurisdiction. See Erie Ins. Exch. v. Erie Indem. Co., 722 F.3d 154, 158 (3d Cir. 2013)
(“|T]he party seeking removal, bears the burden of establishing that federal subject matter
jurisdiction exists.”) (citing Kaufman v. Allstate New Jersey Ins. Co., 561 F.3d 144,151 (3d Cir.
2009)); see also Lincoln Ben. Life Co. v. AEI Life, LLC, 800 F.3d 99, 105 (3d Cir. 2015) (“The
burden of establishing federal jurisdiction rests with the party asserting its existence.”),
m.

DISCUSSION
Remand is required here.3 “As a general matter, defendants may remove to the

appropriate federal district court ‘any civil action brought in a State court of which the district

2 The forum defendant “rule provides that ‘[a] civil action otherwise removable solely on the
basis of [diversity jurisdiction] may not be removed if any of the parties in interest properly
joined and served as defendants is a citizen of the State in which such action is brought.’” See
Encompass Ins. Co. v. Stone Mansion Rest. Inc., 902 F.3d 147, 152 (3d Cir, 2018), reh’g denied
(Sept. 17,2018) (citing 28 U.S.C. § 1441(b)(2)).
3 To the extent Arrington asserts in the Notice of Removal that Wells Fargo, as Plaintiff, “is not
[the] real party in interest!,]” (ECF No. 2 at 3), the Court rejects any potential argument that
Wells Fargo, as the plaintiff in the underlying Ejectment Action, lacks a legal basis for seeking to

3

V

Case 2:20-cv-Q1342-GAM Document 8 Filed 07/21/20 Page 4 of 5
courts of the United States have original jurisdiction.’” City of Chicago v. lnt 7 Coll, of
Surgeons, 522 U.S. 156,163 (1997) (quoting 28 U.S.C. § 1441(a)). Arrington asserts that
diversity jurisdiction exists pursuant to 28 U.S.C. § 1332(a). Section 1332(a) provides for
federal jurisdiction when parties are citizens of different states and the amount in controversy
exceeds $75,000: However, “fa] civil action otherwise removable solely on the basis of the
jurisdiction under section 1332(a)... may not be removed if any of the parties in interest
properly joined and served as defendants is a citizen of the State in which such action is
brought” 28 U.S.C. § 1441(b)(2). It is apparent from the Notice of Removal and the parties’
filings that Arrington is a citizen of Pennsylvania. Indeed, Arrington affirmatively states in the
Notice of Removal that his state of citizenship is Pennsylvania, and that he “is a permanent
resident and domiciliary of the State of Pennsylvania.” (ECF No. 2 at 3, 7.) Accordingly, as this
ejectment action was originally filed in Court of Common Pleas for Delaware County
Pennsylvania., and as Arrington is a citizen of Pennsylvania, remand is required here.4

remand the case. Wells Fargo is the Plaintiff in this case. Accordingly, it is appropriate for
Wells Fargo to file for remand.
4 To the extent Arrington’s Notice of Removal can be construed as alleging that this Court may
exercise federal question jurisdiction over this matter pursuant to § 1331, (ECF No. 2 at 7), the
Third Circuit has made clear that an “ejectment action... is governed by state law,... does riot
present a federal question!,]” and therefore “belongs back in state court.” See Lott v. Duffy, 579
F. App’x 87, 89-90 (3d Cir. 2014). Accordingly, there is no basis for the Court to exercise
subject matter jurisdiction in this action, and remand is appropriate.
4

case 2:20-cv-01342-GAM Document 8 Filed 07/21/20 Page 5 of 5

IV.

CONCLUSION
For the reasons stated, Arrington’s application for leave to proceed informa pauperis will

be granted, Wells Fargo’s Motion for Remand will be granted, and this case will be remanded to
the Court of Common Pleas for Delaware County. An appropriate Order follows.

BY THE COURT:
Gerald Austin McHugh
United States District Judge

5

r

Appendix B

Case: 20-2662

Document: 3

Page: 1

Date Filed: 10/05/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2662
In re: Russell Arrington
(U.S. District Court No.: 2-20-cv-01342)
ORDER
-

Pursuant.tQ-Fed.-R. App._P. 3(a) and3rd Cir. LAR 3.3 andMisc. 107.1(a), it is

ORDERED that the above-captioned case is hereby dismissed for failure to
timely prosecute insofar as petitioner failed to pay the requisite fee or file a motion for
leave to proceed in forma pauperis as directed.
For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: October 05,2020
A True Copy:

kr/cc: Russell Arrington
Matthew G. Brushwood, Esq.
Peter W. Wapner, Esq.
Ms. Kate Barkman, Clerk

tr
Patricia S. Dodszuweit, Clerk

r

?

Appendix C

DLD-035
November 19. 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2662
In re: RUSSELL ARRINGTON. Petitioner
(Related to E.D. Pa. Civ. No. 2-20-cv-01342)
Present:

JORDAN, KRAUSE and PHIPPS, Circuit Judges
Submitted are:
(1)

Petitioner’s petition for a writ of mandamus

(2)

Petitioner’s motion to reopen appeal; and

(3)

Petitioner’s motion to proceed in forma pauperis
in the above-captioned case.
Respectfully,

Clerk
__ ____________________ _________ ORDER_________________________________
Petitioner’s motion to reopen the appeal is denied.^Aynotion to reopen after a
dismissal for failure to prosecute “must be justified by the showing of good cause and
must be filed within 10 days of the date of dismissal.” 3d Cir. L.A.R. Misc. 107.2(a).
Petitioner filed his motion to reopen nearly one month after the-Clerk-dismissed his mandamus action, and he has not shown good cause for his failure to timely comply with
this Court’s October 5, 2020 order regarding fees. Petitioner has also failed to comply
with the service requirements set forth in Fed. R. App. P. 21(a)(1); although he attaches
to his motion to reopen a certificate of sendee reflecting that he served the District Judge
with a copy of that motion (which includes a copy of his motion to proceed in forma
pauperis), he does not state in his certi ficate of service that he served the District Judge
and Wells Fargo with copies of his mandamus petition. In light of our disposition of

Petitioner’s motion to reopen, we take no action on his mandamus petition or his motion
to proceed in forma pauperis.
By the Court,

V'•

s/ Kent A. Jordan
Circuit Judge . i
Dated:
SLC/cc:

November 25,2020
Russell Arrington
Counsel of Record

:
1;,
i :
i

■

.

Additional material
from this filing is
available in the
Clerk's Office.

